Audit of USAID/Dominican Republic’s
      Recipient Audit Universe



       Audit Report No. 1-517-01-002-P
               March 2, 2001




        San Salvador, El Salvador
             U.S. A GENCY FOR
             INTERNATIONAL
              DEVELOPMENT

             RIG/San Salvador


             March 2, 2001


             MEMORANDUM

             FOR:               USAID/Dominican Republic Director, Elena Brineman

             FROM:              Regional Inspector General/San Salvador, Timothy E. Cox

             SUBJECT:           Audit of USAID/Dominican Republic’s Recipient Audit Universe
                                (Report No. 1-517-01-002-P)

             This memorandum is our report on the subject audit. In finalizing the report, we
             considered your comments on the draft report. Your comments on the draft report
             are included in Appendix II.

             The report contains two recommendations for your action. Based on the
             information provided by the Mission, a management decision has been reached
             for Recommendation No. 1 and final action has been taken for Recommendation
             No. 2. A determination of final action for Recommendation No. 1 will be made
             by the Office of Management Planning and Innovation (M/MPI/MIC) when
             planned corrective actions are complete.

             I appreciate the cooperation extended to my staff during the audit.



Summary of   The Regional Inspector General/San Salvador performed an audit to determine
Results      whether USAID/Dominican Republic’s audit universe is complete and accurate
             and were required audits done in a timely manner.

             Our audit showed that USAID/Dominican Republic developed a complete and
             accurate audit universe. However, the reports were not done in a timely manner.
             (See pages 3 through 6)

                                                                                           1
             Mission officials concurred with the findings and conclusions of our audit. They
             are in the process of implementing corrective actions for Recommendation No. 1
             and have taken the necessary actions to implement Recommendation No. 2. (See
             Appendix II)



Background   Financial audits of contracts and grants are a primary basis for effective
             management and control of USAID’s program expenditures. These audits are
             designed to provide USAID management reasonable assurance that transactions
             are properly recorded and accounted for; laws and regulations, and provisions of
             contract or grant agreements are complied with; and USAID-financed funds,
             property, and other assets are safeguarded against unauthorized use or disposition.

             In response to Congressional concerns, USAID has taken an active role in recent
             years using audits as a management tool to improve financial accountability of its
             programs.

             In May 1996, USAID issued Automated Directives System (ADS), Chapter 591
             which, among other things, requires USAID missions to (1) establish an audit
             management plan; (2) maintain an audit inventory database; and (3) have audits
             done for non-U.S. grants, contracts, and cooperative agreements that meet the
             audit threshold.

             These initiatives are of far reaching consequence in preventing misuse of USAID
             development funds and facilitating timely corrective actions by USAID. Lack of
             adequate audit coverage constitutes an unacceptable risk because, without such a
             control mechanism, financial accountability of program expenditures cannot be
             reasonably assured.

             In March 1998, the Office of Inspector General (OIG) issued Audit Report No.
             3-000-98-002-F on USAID missions’ roles in obtaining audits of their contracts,
             grants, and cooperative agreements. The report concluded that 11 of the 14
             USAID missions selected (on an USAID-wide basis) generally obtained audits of
             their contracts, grants, and cooperative agreements as required by ADS Chapter
             591. However, a significant number of required audits were not completed at 10
             of the audited 14 USAID missions.

             In May 1999, OIG management decided to verify the accuracy of USAID
             missions’ recipient audit universe worldwide over a period of three years because
             the lack of audit coverage was perceived as a high-risk area.




                                                                                              2
Audit Objectives As part of its fiscal year 2001 audit plan, the Regional Inspector General/San
                      Salvador performed an audit to answer the following question:

                      h       Is USAID/Dominican Republic’s audit universe complete and accurate
                              and were the required audits done in a timely manner?

                      The audit scope and methodology is presented in Appendix I.



Audit Findings        Is USAID/Dominican Republic’s audit universe complete and
                      accurate and were the required audits done in a timely manner?

                      The audit showed that USAID/Dominican Republic developed a complete and
                      accurate audit universe. However, the audit showed that even though the audit
                      reports were done, they were not submitted in a timely manner to the Office of the
                      Regional Inspector General/San Salvador, as required by ADS 591.

                      For fiscal year 1999, the Mission disbursed approximately $14.3 million1 to 19
                      U.S. organizations and 16 non-U.S. organizations. The table below provides a
                      breakdown of these disbursements by type of agreement and by number and type
                      of recipients:

                                                 U.S.                 Non-U.S.                  Total
                                         Disbursements and Disbursements and             Disbursements and
                      Type of            No. of Recipients No. of Recipients             No. of Recipients
                      Agreement
                      Contract             $3,252,614        3       $503,433        2    $3,756,047         5
                      Grant                  1,659,027       8       1,645,846       9      3,304,873      17
                      Cooperative            2,169,815       2       3,765,113       4      5,934,928        6
                      Agreement
                      Other                  1,235,576       6         111,294       1      1,346,870        7
                                           $8,317,032      19      $6,025,686      16    $14,342,718       35

                      We determined (as of September 30, 1999) that, of the 16 non-U.S. grant and
                      agreement recipients listed, six recipients, with total disbursements of $4,873,652,
                      were subject to audit coverage during fiscal year 2000. The remaining ten non-
                      U.S. recipients were not required to be audited.

                      1
                       USAID/Dominican Republic is the accounting station for USAID/Guyana. All figures include
                      both USAID/Dominican Republic and USAID/Guyana disbursements.
                                                                                                                  3
We determined that all six recipients were included in the Mission’s audit
database inventory. The Mission took several actions to implement an audit
management plan in accordance with the requirements of ADS Chapter 591,
which included:

•       establishing a Management Control Review Committee to monitor the
        status of the Mission’s audit management plan and to assure its audit
        responsibilities were carried out;

•       designating an Audit Management Officer to coordinate and monitor the
        Mission’s audit management plan and follow up on implementation of
        recipient-contracted audit recommendations;

•       including the required audit clauses in its grants and contracts and
        budgeting funds for audits; and

•       maintaining an automated inventory of contracts, grants, and cooperative
        agreements requiring audits and to track such audits.

Required Audits Were Not
Done in a Timely Manner

Chapter 591 of USAID’s ADS requires overseas missions to establish an audit
management plan and obtain audits of its non-U.S. grantees and contractors. In
addition, USAID’s Guidelines for Financial Audits Contracted by Foreign
Recipients states that reports resulting from these audits are to be submitted to the
cognizant OIG audit office within nine months after the recipient’s fiscal year-end
for review and release.

Based on the audit inventory, there were six audits that were due during fiscal
year 2000. None of the six audit reports were submitted to the Regional Inspector
General/San Salvador within the required nine-month timeframe. 2 For example,
one report, due December 1999, was 13 months late and another report, due June
3, 2000, has not yet been submitted.

There were several reasons why the audit reports were submitted late. The
Mission did not place a high priority on submitting audit reports on a timely basis
to the Regional Inspector General/San Salvador. Also contributing to the problem
was the fact that the Management Control and Review Committee was unaware
that audit reports were not being submitted on a timely basis.



2
 In addition, from September 2000 through December 2000, the mission submitted to RIG/San
Salvador 32 past-due audit reports that had been issued by the audit firms as long ago as 1995.
However, these reports were outside the scope of the current review.

                                                                                                  4
Starting in August 2000, the financial analysts began to review the past-due
reports. The Mission also requested assistance from other USAID controllers.
Moreover, to reduce the amount of time to review the audit reports, the Mission
will no longer review the draft audit reports in Spanish. The audit firms now have
to submit their audit reports only in English.

By not ensuring that the required audit reports were done in a timely manner,
USAID/Dominican Republic did not have adequate assurance that: (1) the audits
of non-U.S. recipients were conducted in accordance with USAID requirements,
and (2) the recommendations were tracked in USAID's Consolidated Audit
Tracking System. As a result of the above, we are making the following
recommendation:

       Recommendation No. 1: We recommend that USAID/
       Dominican Republic:

       1.1    establish a plan of action for submitting all past-due
              audit reports to the Regional Inspector General/San
              Salvador;

       1.2    revise the Mission Order on Procedures for Handling
              Audits to reflect the current due dates, contained in
              Automatic Directives System, Chapter 591, for
              submitting audit reports to the Regional Inspector
              General/San Salvador, and to establish timeframes for
              processing audit reports to meet those due dates;

       1.3    establish procedures requiring the Management
              Control and Review Committee to periodically review
              the status of the audit management plan in comparison
              with Automated Directives System Chapter 591
              requirements; and

       1.4    change, in its Mission Internal Control Assessment
              Tracking Report, the rating from satisfactory to
              unsatisfactory the control technique: “An audit
              management plan is in place and annual audits are
              conducted, where required, of non-U.S. organizations
              awarded direct contracts and grants, and host-country
              owned local currency accounts” until all the past due
              audit reports are submitted to the Regional Inspector
              General/San Salvador.




                                                                                5
             Information in the Audit Inventory of Non-U.S.
             Contractors and Grantees Database Could Be Improved

             A review of the accuracy of the information in the audit inventory database of
             non-U.S. contractors and grantees database disclosed seven errors out of 182 data
             elements tested. The errors generally pertained to an incorrect expiration date or
             amount of the grant or cooperative agreement. This was due to the financial
             analysts not making the necessary changes to the database when there were
             changes made to the grant or cooperative agreement or the information was
             entered incorrectly. Although the required audits were performed, the wrong
             expiration date or amount in the grant or cooperative agreement could result in an
             audit not being performed.

                    Recommendation No. 2: We recommend that USAID/
                    Dominican Republican reconcile the audit inventory database
                    of non-U.S. contractors and grantees on a regular basis to
                    ensure its accuracy.



Management   USAID/Dominican Republic concurred with the findings and conclusions of our
Comments     audit. The Mission is in the process of implementing corrective actions for
and Our      Recommendation No. 1 and have taken the corrective actions to implement
             Recommendation No 2. Mission comments are attached in their entirety as
Evaluation
             Appendix II.




                                                                                             6
                                                                                      Appendix I


Scope and     Scope
Methodology
              The audit was performed in accordance with generally accepted government
              auditing standards and assessed whether USAID/Dominican Republic’s audit
              universe was complete and accurate, and were required audits done in a timely
              manner.

              For the purposes of this audit, we obtained information on audits due from
              October 1, 1999 through September 30, 2000. Fieldwork was performed at
              USAID/Dominican Republic from December 4 through December 8, 2000 and
              covered approximately $6 million of USAID disbursements to non-U.S. based
              organizations. The audit scope included:

              (1)     reviewing the Mission’s audit management plan and related documents,

              (2)     interviewing cognizant Mission officials, and

              (3)     reviewing the Mission’s automated database universe of contracts, grants,
                      and cooperative agreements and identifying those that require audits.

              We also obtained an understanding of the internal control system as it relates to
              the audit objective and assessed risk.

              In addition, we obtained information on (1) total disbursements for all grants,
              contracts, and cooperative agreements (U. S. and non-U.S.) as of September 30,
              1999 and, (2) the number of recipients, which receive USAID funds, below the
              audit threshold of $300,000 to obtain a complete picture of the Mission’s
              portfolio.

              The audit criteria was principally comprised of Chapter 591 of USAID’s
              Automated Directives System (ADS) and the OIG’s “Guidelines for Financial
              Audits Contracted by Foreign Recipients,”(Guidelines) revised in July 1998.

              Methodology

              The methodology included (1) reviewing the Mission’s audit inventory database
              system to determine if it contains the information needed to monitor and track
              required audits, (2) examining documentation, and (3) conducting interviews with
              cognizant officials to determine whether the Mission had met its responsibilities
              as established by ADS Chapter 591 and the Guidelines.

              To answer the audit objective, we obtained the universe of USAID/Dominican
              Republic’s grants, contracts, and cooperative agreements and determined the
              number and dollar amounts of all agreements with non-U.S. organizations subject
              to audit coverage at September 30, 1999. The above information was obtained
                                                                                                  7
                                                                      Appendix I

from Mission Accounting and Control System (MACS) reports. We also
reviewed Controllers office contract agreements as well as the Regional
Contracting Officer’s (RCO) contract files. Specifically, we performed tests of
the audit inventory data elements to contract files and sampled RCO files for
inclusion in audit inventory database. We then determined whether: (1) such
agreements were properly included in the Mission’s audit database inventory, and
(2) required audits were submitted to the Regional Inspector General/San
Salvador on a timely basis.

We did not audit the accuracy of the information in the Mission’s MACS database
system because of time constraints and because it was not directly relevant to our
audit objective. We considered five exceptions as our materiality threshold.




                                                                                8
                                                                                         Appendix II



Management
Comments
              UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT
                            Santo Domingo, Dominican Republic


                                                                 UNITED STATES GOVERNMENT
                                                                               MEMORANDUM

     Date:                Tuesday, February 06,2001

     To:                  Timothy E. Cox, Regional Inspector General, San Salvador

     From:                Elena Brineman, Mission Director

     Subject:             Draft Report -Audit of USAID/DR's Recipient Audit Universe

     Subject draft report contains two recommendations. The audit of USAID/DR's Recipient
     Audit Universe had the following objectives: to determine if USAID/DR's audit universe
     was complete and accurate and if the required audits were done. The recommendations
     made to USAID/DR follows:

     1.    We recommend that USAID/Dominican Republic:

           1.1establish a plan of action for submitting all past-due audit reports to RIG/San
           Salvador;

           1.2 revise the Mission Order on Procedures for Handling Audits to include internal
           timeframes for making sure the audit reports are sent to RIG/San Salvador on time
           and to change from 13 months to 9 months the date when audit reports need to be
           submitted to RIG/San Salvador;

           1.3 have the Management Control and Review Committee periodically review the
           status of the audit program in comparison with ADS Chapter 591 requirements; and

           1.4 change, in its Mission Internal Control Assessment Tracking Report, the rating
           from satisfactory to unsatisfactory the control technique: “An audit management
           plan is in place and annual audits are conducted, where required, of non-U.S.
           organizations awarded direct contracts and grants, and host-country owned local
           currency accounts” until all the past due audit reports are submitted to RIG/San
           Salvador.

     2.    We recommend that USAID/Dominican Republic review the information in the
                                                                                                  9
                                                                                  Appendix II

    audit inventory of non-U.S. contractors and grantees database to ensure accuracy.

In connection with recommendation 1.1, the Mission is using a tracking matrix (attachment
A) which follows the progress of audits included in the FY '00 audit plan. From the
original audit plan we deleted audits scheduled to be sent to the RIG after 9/30/00. To the
list we added audits for INTEC/CAMPE for the years ending 12/31/98 and 12/31/99. Of our
final list of 11 reports for the FY '00 audit plan, 3 reports have been moved to our FY
'01 audit plan (of which one has been completed), due to extensions of the grants and
changes in the period audited. One report has been completed and 3 reports are in-transit to
you for final review and approval. This leaves 4 reports that need to be sent to the RIG for
final approval and subsequent closure of this recommendation.

The Mission Order on Procedures for Handling Audits has been amended to include,
internal timeframes for handling audits (matrix) and the correct time of 9 months for receipt
of audit reports by RIG/San Salvador (attachment B). This constitutes final action for
recommendation 1.2.

For recommendation 1.3, on 1/31/01 the USAID/DR MCRC and Deputy Team/Office
Chiefs attended the quarterly MCRC meeting which included a 1 hour training session on
Mission and MCRC audit responsibilities (attachment C1 minutes, C2 training, C3 tracking
reports). The MCRC meets on a quarterly basis and will continue to review the audit plan
and recommendation tracking reports as has been done in the past. This constitutes final
action for recommendation 1.3.

The control technique which states " An audit management plan is in place and annual audits
are conducted, where required, of non-U.S. organizations awarded direct contracts and
grants, and host country owned local currency accounts" has been changed to unsatisfactory
in the Mission Internal Control Assessment Tracking Report (attachment D). This
constitutes final action for recommendation 1.4.

In connection with recommendation No.2, RIG/San Salvador reviewed a draft audit
inventory for FY '01. This draft was reviewed and corrections made before the final audit
inventory and audit plan were sent to the RIG in December. USAID/DR updates the
inventory and audit plan quarterly and will send any changes to the RIG in the future. This
constitutes final action for recommendation 1.5.

USAID/Dominican Republic would like to thank the Regional Inspector General's Office in
San Salvador for the advice and suggestions that were made to USAID staff during the
performance of the audit. The Mission has made substantial progress (more than 40 reports
sent to the RIG for final approval since August) in clearing up an audit backlog caused by
competing work requirements, and continues to place our audit program as a Mission
priority. We look forward to receiving the final report that indicates that all
recommendations except for 1.1 have been closed.




                                                                                              10
